No. 20-___
IN THE

Supreme Court of the United States
JOSHUA WRIGHT,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner Joshua Wright, through undersigned counsel, asks leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis. Counsel was appointed in the United States Court of Appeals
for the Fourth Circuit pursuant to 18 U.S.C. ยง 3006A.
This the 6th day of December, 2020.

Respectfully submitted,
/s/ Jennifer C. Leisten
JENNIFER C. LEISTEN
Assistant Federal Public Defender
Counsel of Record
Eastern District of North Carolina
150 Fayetteville St., Suite 450
Raleigh, NC 27601
(919) 856-4236
jennifer_leisten@fd.org
Counsel for Petitioner

